.Department of Health and Human Services
1
ADMIN STRATION ON AG NG
            AND
         OFFICE OF
   INSPECTOR GENERAL




STATE IMPLEMENTATION OF THE
OMBUDSMAN REQUIREMENTS    OF
  THE OLDER AMERICANS ACT
                              ADMINIS’IIU130N       ON AGING

The Administration on Aging (AoA) is the principal Federal agency designed to carry out the
provisions of the Older Americans Act (OAA). It advises the Secretary of Health and Human
Setices and other Federal agencies on the characteristics, circumstances and needs of older
individuals. Further, it develops policies, plans, and programs designed to promote their
welfare.

AoA administers three grant programs under the Older Americans Act. The largest program -
- Title III of the Act -- consist of formula grants to States to establish State and community-
based programs for older individuals with the purpose of preventing the premature
institutionalization of older individuals. The second program -- Title VI -- consists of
discretionary grants with the same purpose as Title III, but to meet the unique needs of older
Native Americans. The third program -- Tkle IV -- is also discretionary. Its purpose is to fund
research, demonstration, and training activities to elicit knowledge and techniques to improve
the circumstances of older Americans. (The 1992 Amendments to the OPA created a fourth
program -- Title VII -- which provides funds for State activities to protect the rights of
vulnerable older people. Prior to the 1992 Amendments, Title III of the OAA provided the
funds for these activities.)

                            OFFICE OF INSPECI’OR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Semites’ (HHS)
programs as well as the health and welfare of beneficiaries sewed by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department.
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

                                        THIS REPORT

This report is the result of a joint effort between AoA and OIG/OEI to assess the
implementation of Title III of the Older Americans Act. OIG staff in the New York and
Dallas regional offices provided technical support to the joint project. AoA staff in New York
and Dallas directed the project with all regional offices participating in the development of
instruments and data collection.

For additional information, please contact:

AoA            John Dia~ Regional Program Director-Dallas
OIG            Jack Molnar, Project Leader-New York
 Department of Health and Human Services

ADMINISTRATION   ON AGING

            AND

         OFFICE OF

   INSPECTOR GENERAL





 STATE IMPLEMENTATION  OF TI=
 OMBUDSW     REQUIREMENTS   OF
   THE OLDER AMERICANS ACT




             APRIL 1993   OEI-02-91-01516

               EXECUTIVE                          SUMMARY

PURPOSE
To review State Units’ on Aging (SUA) implementation of the ombudsman
requirements of Title III of the Older Americans Act (OAA).

BACKGROUND
In an effort to strengthen its stewardship of the 0~    the Commissioner of
Administration on Aging (AoA) requested technical assistance from the Office of
Inspector General (OIG) in designing a review of their primary Title III grantees --
SUAS. After reviewing traditional and current ombudsman activities and discussing
potential approaches for future efforts, we agreed that a review of individual States
would be instituted in such a way as to provide the Commissioner with an overview of
how States are implementing key components of Title 111. Since this review was
conducted, the Long-Term Care Ombudsman Program has been moved from Title III
to Title VII of the OAA. All references in this report are to the program as it was
defined under Title III, prior to the enactment of the 1992 Amendments of the OAA.
In order to conserve limited travel funds the reviews would be conducted on a sample
of States and would focus on only five programmatic areas -- stewardship> targeting>
ombudsman, nutrition, and financial management.

This report on Ombudsmen addresses the requirement that States establish an Office
of Ombudsman to investigate and resolve complaints regarding older individuals
residing in long-term care facility. It focuses on issuing guidance on and monitoring
implementation of the key ombudsman requirements of Title III of the OAA,
including the area planning process.

METHODOLOGY
The reviews were conducted in a stratified, random sample of 20 States based upon
the population of individuals over 60 years of age in each State. In the first step of
the sampling process, States were divided into four strata based upon the number of
older individuals in each State. In the second step, five States were selected from
each stratum. This stratified, random sample permits USto generalize findings from
the 20 sample States to the Nation.

FINDINGS

while l%e ~anization      of State ()/&x   Of (hnbudwnan   Vati   Only S@@&, Sta@g
Varies Greatly

   �
       Most Ombudsmen are located in the State agency, use sub-State offices, and have
         laws establishing their authority
   �
       Professional staffing is directly proportional to the population of older Americans




                                              i
Coordination Between ombudsmen       And Other State Agencies Ex&ts, But Wtih A Fm
I%obkms

  �    Most Ombudsman use joint meetings, referrals, and written agreements to
         coordinate activities with other agencies
  �    One-quarter report coordination problems, usually with adult protection services
         or the legal services developer

WhiZe Ombudkman      Authodies   To P~orm llieu Jobs Axe Based In State Law,
Regukztibq    Or Ikmdi.ue;  Zkere Are Some l%oblems

  �    Some Ombudsmen lacking a State law, rely on the Older Americans Act for
         authority to perform their duties
  �
       Half of the Ombudsmen have reported difficulty with gaining access to LTC
         facilities

Long-Term Care Facility Vi”tation    Varies Si&zificantly, Possib& Due TO Sta@g
Concentrations

  �    Only half of the Ombudsmen visit all of their nursing homes annually
  �    Most Ombudsman include licensed board and care facilities in their visitation
         program

Ombudsmen      Have Many Method     To Increase l%eir Vi”bility

   �   Virtually all Ombudsmen use posters in LTC facilities and the media to increase
          their visibility
   �   Complaints usually come to Ombudsmen from family and friends, or during visits

Some States G“te Roblenw     With Legal Counsel

   �   One-third of Ombudsmen report problems with availability of legal counsel
   �   Ombudsmen must compete with other State agencies for State attorneys or
         contract out for legal services




                                              ii
                      TABLE                         OF CONTENTS
                                                                                                                                                                PAGE

                                                                                                                                                                       1

EXECUTIVE         SUMMAR” r            �   0.....     .   ..0.00             .   ...**.                 �   ******            �    *”*”””             ““”””””
                                                                                                                                                                       1




INTRODUCI’ION            .....    �   *.....        . ......       .O*O*OO                 �   ******                 �   *0*”””            ““”””””              ““
                                                                                                                                                                      1




    Organization OfState          Offices Of Ombudsman Is Similar . . . . . . . . . . . . . . . . . . 4

    Most Ombudsmen           Coordinate With Other State Agencies . . . . . . . . . . . . . . . . . 6

    Ombudsmen Have Power To Perform Their Jobs . . . . . . . . . . . . . . . . . . . . . . . 7

    Nursing Home Visitation Varies Significantly . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

    Ombudsmen Seek To Increase Their Visibility                                           ................... ...                                          �     �    10

    Some Ombudsmen Report Problems With Legal Counsel                                                                . . . . . . . . . . . . . . . . 10


APPENDICES

A   Appendix A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. A-l
                         INTRODUCTION

PURPOSE

To review State Units’ on Aging (SUA) implementation of the ombudsman
requirements of Title III of the Older Americans Act (OAA). (Since this report was
conducted, the 1992 Amendments to the OAA have moved the Ombudsman program
from Title III to Title VII of the OAA.) In this report, the term “ombudsman” refers
to the requirement that States establish an Office of Ombudsman to investigate and
resolve complaints regarding older individuals residing in long-term care facilities.

BACKGROUND

Under the 0~      the Administration on Aging (AoA) serves as the principal Federal
advocate for older individuals, providing national leadership in the development of
programs to address their needs. Through Title III of OAA (Grants for State and
Community Programs on Aging), AoA encourages and assists SUAS and area agencies
on aging (&lAs) to implement a system of coordinated community-based services to
prevent the premature institutionalization of older individuals by allowing them to
remain in their own community.

Under Title III, AoA distributes approximately $765 million in formula grants to States
based on the age 60+ population within each State. The SUAS use about 5 percent
of the grant on administration and then fund AAAs, who then contract for the
supportive services, nutrition services and multipurpose senior centers. The single
largest component of Title III, the nutrition program, provides approximately $450
million for congregate and home-delivered meals. Other key program components
include supportive services (i.e., access services, in-home services and legal assistance)
and the Ombudsman Program which serves as an advocate for residents in long term
care facilities.

One of AoA’s major administrative responsibilities is to provide stewardship over the
States’ implementation of the Title III program. I-Iowever, AoA’s capacity to carry out
its stewardship responsibilities declined substantially during the 1980’s due to a
significant reduction in resources. More specifically, AoA sustained a 47 percent
reduction in staff and 75 percent reduction in travel funds. Each regional office had
only $2,000 annually for travel. Because they could not monitor SUAS, AoA became
further and further removed from the activities of the SUAS and their area agencies
on aging.

In efforts to strengthen its stewardship of the OAA, the Commissioner of AoA
requested technical assistance from the Office of Inspector General (OIG) in
designing a review of their primary Title III grantees -- SUAS. In response to the
Commissioner’s request, OIG staff met with key AoA headquarters and regional staff
to identi~ traditional and current stewardship activities and to discuss potential


                                             1
approaches for future efforts. As a result, we agreed that the review of individual
States would be instituted in such a way as to provide the Commissioner with an
overview of how States are implementing key components of Title III. The OIG
agreed to assist AoA in developing national, standardized review instruments for key
components of Title III and in writing a report summarizing States’ implementation of
the Act. We also agreed that in order to conserve limited travel funds the reviews
would be conducted on a sample of States and would focus on only five programmatic
areas -- stewardship, targeting, ombudsman, nutrition, and financial management.

Designing the review began with the meeting of a review team of OIG and selected
AoA regional staff. They brainstormed approaches, identified Federal reporting and
operating requirements for SUAS and AAAs, and drafted instruments containing the
review questions and criteria. The draft instruments were shared with AoA
headquarters staff and each regional office for comments, and then revised to reflect
comments.

The OIG/AoA review teams pre-tested the instruments and data collection
methodology by conducting reviews for each of the five instruments in six States
located in four different Federal regions. The pre-test identified that a great deal of
time was lost explaining criteria (interpreting law and regulation) and searching for
documentation. Accordingly, the review team modified each of the instruments and
changed the data collection methodology. The most significant change to the
methodology required the sharing of the review instruments with the States prior to
the site visit in the belief that if States are aware of and understand the review criteria
being used during the review, they will be better prepared to provide required
documentation and to discuss specific issues.


METHODODGY

The reviews were conducted in a stratified, random sample of 20 States based upon
the population of individuals over 60 years of age in each State. These are the same
data used to allocate Title III funds among States. In the first step of the sampling
process, States were divided into four strata based upon the number of older
individuals in each State. In the second step, we selected five States from each
stratum. This stratified, random sample permits us to generalize findings from the 20
sample States to the Nation. Table I indicates those States selected for the review
process (See Table I).




                                             2
                                        TABLE I


                                 SAMPLE STATES
       Stratum 1            Stratum 2           Stratum 3        Stratum 4
   California           Michigan               Wisconsin    New Hampshire
   Pennsylvania         Indiana                Colorado     North Dakota
   New York             Massachusetts          Oklahoma     Nevada
   Texas                Georgia                Maine        District
   Florida              North                  Oregon         of Columbia
                          Carolina                          Montana

The data collection was conducted in two phases -- an AoA regional office desk
review and an on-site review at the SUA. During the desk review phase, we looked at
program instructions. Following the desk review, each State was sent a proposed
agenda for the site visit, copy of the ombudsman review instrument (Appendix A), and
the findings from the desk review to be discussed during the site visit. The review
instrument focused on the nature and operation of the Office of Ombudsman and on
key requirements of Title III. The instruments also focus on the issues of SUA
operating procedures and on training and technical assistance activities.

We entered data from the ombudsman review instruments into one database that
contained the responses to the open- and closed-ended questions on the instrument.
The percentages cited in this report are based on the responses to specific questions
contained in the review instrument. The responses are weighted to reflect the sampling
plan and are projected to the Nation. The precision at the 90-percent confidence
intervals vary for each question from plus or minus 6 to 21 percent based upon the
nature of the question (categorical or continuous) and the number of respondents to
each question.




                                           3
                                 FINDINGS

WHILE THE ORGANIZATION OF STATE OFFICES OF OMBUDSMAN
VARIES ONLY SLIGHTLY, STAFFING VARIES GREATLY

States have taken similar approaches in setting-up their Offices of Ombudsman. Most
Ombudsman offices are located in the SU~ while 18 percent are located in either
independent agencies or in other agencies with their relationship to the State Agency
established in a contract or memorandum of understanding. Most Ombudsman offices
are not located in the agency responsible for licensinglong-term care (LTC) facilities.
Only four percent of States are in a licensing agency. In these instances, the licensing
agency is an umbrella human service agency.

States (76 percent) that utilize sub-State Ombudsmen have different organizational
approaches in establishing these offices. Half of the State Ombudsmen who use sub-

State Ombudsmen contract out to the area agencies on aging (AA/is) to act as the

sub-State Ombudsman. Twenty-nine percent of the time they contract with other

community-based organizations. Some States (18 percent) do not contract out. For

these, State employees act as the sub-State Ombudsmen.


All Offices of Ombudsman have State laws that outline their responsibilities and

authorities. Also, all of the State Ombudsmen work full-time as the Ombudsman.

However, in one instance, two part-time employees share the full-time position.

The staffing levels for each State differ greatly. Total statewide staffing (professional,

support and volunteer) ranges from 3 to 1323, for an average of 216. The median

number of staff is 58, which indicates most are smaller than the average. Full-time

professional staff range from 1 to 65, with an average of 14. Each State has an

average of 16 part-time professional staff, with a range from 1 to 131. On the whole,

Ombudsman offices do not have many support personnel. They average only 2.5

clerical or support staff. Lastly, 45 percent of Ombudsmen rely on full-time staff and
55 percent on part-time staff.

Stafmg   Levelk Vary By Popzdation

The number of professional statewide staff tends to correlate with the 60-plus
population of the State, with a few exceptions. Generally, States with a smaller
number of older individuals have a lower number of professional staff. States whose
60-plus population is under half a million have six or less full-time professional staff
members. Those with an older population of over a million employ at least ten full-
time professionals. One State, with one of the largest older populations, has 65 full-
time professionals. However, two States are an exception to this pattern. They show
three and four professional staff members respectively but have older populations of
2.4 and .9 million.




                                             4
The number of volunteers statewide does not, however, correlate with the 60-plus
population of a State. Unlike the relationship between professional staff and 60-plus
population, some States that have older populations under half a million have more
volunteers than States with older populations of over 1.5 million. One State, with a
60-plus population of slightly over a million has the most volunteers (1323). Another
State which has a 60-plus population of 3.2 million has only 455 volunteers. One State
has 50 volunteers and a 60-plus population of 102,984, while another State has 59
volunteers and an older population of 1.5 million.

Sta~g   Leveik Do Not Effect Visitation Rates

The size of a State’s staff does not insure that all its nursing homes will be visited
annually. States that visited 100 percent of the nursing homes in their States varied
greatly in the amount of professional staff and volunteers. One, which visited all
nursing homes, has 22 professional staff (full and part-time included) and 1,300
volunteers. Another, with three professional staff members and no volunteers, also
visited all its nursing homes. This State contracts with its AAA’s to provide sub-State
Ombudsman programs; these programs visit the nursing homes. Some States with
large staffs do not visit all of their nursing homes annually. One only visited half of its
nursing homes although it has 57 professionals and 455 volunteers.

As with nursing homes, the size of the staff does not insure that all of a State’s
licensed board and care facilities will be visited. States are not currently required to
visit these facilities (unless a complaint against a facility is received by the
Ombudsman), but most make some visits. The States that visited all their board and
care facilities had some of the smaller professional staffing levels (3 to 54 members).
In contrast, some States with larger staffs did not visit any board and care facilities.

Volunteem

Eighty percent of the States use volunteers in their Ombudsman program. The
number of volunteers range from 3 to 1,300, for an average of 246. While all States
that use volunteers train them, nineteen percent do not formally certify them.
Generally, volunteers are certified after they received training and after it has been
determined that they do not present a conflict of interest. Some must pass a written
exam, while others sign contracts stating that they understand their responsibilities.

Ombudsmen who use volunteers would like more volunteers and believe a more active
recruitment and screening process is needed. The States also mention the need for
better supervision over and better retention tactics for volunteers. They feel that
more training may help to improve retention. Also, having funds for administrative
support and for reimbursement of expenses that the volunteers incur (i.e., mileage to
and from the LTCS, lunch) would help. Finally, some of the States that do not certi@
volunteers believe a certification process would improve the quality of volunteers.




                                             5
The use of volunteers has helped Ombudsman programs. Most States indicate that
volunteers allow for more visits to LTCS. They help to handle more resident
complaints in a cost effective, timely manner. The increased visitation to the LTCS
has helped give the Ombudsman programs greater visibility with the residents and
staff. This, in turn, has helped both groups to better understand residents’ rights.

The States that do not use volunteers (20 percent) offer three reasons: their State
legislatures prohibit the use of volunteers; their AAAs are not convinced that
volunteers can do the job; or they believe it is too difficult to train and manage
volunteers.

COORDINATION BETWEEN OMBUDSMEN                    AND OTHER STATE AGENCIES
EXISTS, BUT WITH A FEW PROBLEMS

Coordination

The Older Americans Act requires the Ombudsman Program to coordinate activities
with other agencies and individuals. These include protection and advocacy agencies
for individuals with developmental disabilities and mental illness, adult protective
services, long term care licensing agencies, and the Legal Service Developer. The
Ombudsmen rely on a few approaches to meet these requirements; in many situations
they use more than one of these approaches to facilitate coordination. Some of the
more common approaches for coordination are joint meetings, joint training,
memoranda of understanding (MOU), and referrals.

Joint meetings (37 percent) and MOUS (33 percent) are the most often used methods
of coordination between the Ombudsmen and the protection and advocacy agency for
individuals with developmental disabilities and mental illness. Joint training between
the agencies is used about a quarter of the time. Eighteen percent of the
Ombudsman offices report that they refer cases to the protection and advocacy
agency. (Thirteen percent of the Ombudsmen are actually located within the same
agency that houses the protection and advocacy agency).

Most Ombudsmen (58 percent) report using referrals in their coordination with adult
protective services. Almost half (46 percent) use joint training to accomplish
coordination, and 27 percent have MOUS that establish the relationship between the
two agencies.

Sixty-four percent of the Ombudsmen use joint meetings to coordinate operations with
long term care (LTC) licensing agencies. Other methods are referrals (26 percent),
MOUS (23 percent), and joint training (19 percent).

The Ombudsmen use a few methods to coordinate with the Legal Service Developer
(LSD). For 10 percent of the States the LSD is the Ombudsman’s attorney, and for
28 percent the Ombudsman and the LSD are co-located in the Ombudsman programs.



                                           6
For those Ombudsmen not co-located with the LSD, joint training is frequently used
(32 percent) to achieve coordination.

State Ombudsmen also coordinate with citizen advocacy groups. This coordination is
achieved mostly by public education by the Ombudsmen (43 percent). The
Ombudsmen also hold joint meetings with such groups (32 percent). Citizen groups
serve as advisory committees to 30 percent of the States. Often these two groups
meet to discuss nursing home reforms. This type of coordination on legislative matters
has reportedly helped form a good working relationship between the two groups.

tibkms

One quarter of all Ombudsmen report problems with coordination. They tend not to
have formal agreements with the developmental disabilities protection and advocacy
systems and, therefore, find coordination difficult. Some report making referrals by
phone and then not receiving return calls. One State is particularly frustrated. Its
Ombudsman feels that the protection and advocacy agency has the funds to actively
work in the nursing homes, but chooses not to since the agency feels there are not
many developmentally disabled and mentally ill residents.

Some Ombudsmen (14 percent) report problems with coordination with adult
protective services. A common complaint is that adult protective services in some of
these States do not have enough funds to conduct investigations in nursing homes.
Nursing homes are not a priority because adult protective services focuses on family
abuse. Since these States lack formal agreements with adult protection semices, it is
hard to make LTC facilities a priority. One Ombudsman believes that the adult
protective service program in & State does not consider nursing homes to be part of
its domain. Protective Sexvices believes that the nursing homes should deal with
questions of abuse.

Twenty-three percent of the Ombudsmen report they have no LSD in their State.
They consider the lack of a LSD a problem.

WHILE OMBUDSMAN AUTHORITIES TO PERFORM THEIR JOBS ARE
BASED IN STATE LAW, REGULATION, OR PROCED~, THERE ARE
SOME PROBLEMS

The OAA requires the Ombudsmen to have certain authorities. These authorities
help them to perform their duties by resolving conflicts of interest, protecting staff
from law suits, and by giving staff access to LTC facilities and LTC residents’ files.
Ombudsmen tend to use State laws, procedures and regulations to meet the
requirements of the OAA. However, some report problems in meeting these
obligations.

The OAA requires that the State ensure that “no individual involved in the designation
of the LTC ombudsman” or “that no officer, employee, or other representative of the


                                             7
(Ombudsman) Office is subject to a conflict of interest.” To guarantee no conflict, the
Ombudsmen use State procedures, which may include employees filing forms stating
they have no conflict of interest (43 percent of the time). The remaining States have
passed State regulations (31 percent) and State laws (17 percent) to cover this
provision.

A representative of the Ombudsman office cannot be held liable for actions while
acting in good faith in performing their official duties. Most States (80 percent) have
passed laws to protect employees from liability. However, seven percent lack such
protection and use insurance policies to protect Ombudsman staff. Thirteen percent
of the Offices report problems with this issue, mainly the lack of a State statute
specifically protecting Ombudsmen. Some of these States report State employees are
covered simply because they are State employees, but the status of volunteers is
questionable.

Seventy-three percent of the States have laws that make it unlawful for any person to
willfully interfere with a representative of an Ombudsman office. However, five
percent of the States don’t have a State law and rely on the OAA to protect staff from
interference. Many States (22 percent) have had problems with this provision. Some
States simply do not have laws or regulations that would prevent willful interference.
Other States use community access laws that do not provide as much protection as the
OAA requires.

Ombudsman representatives are required to have full access to facilities and files to
perform their duties. Eighty percent of the States have laws that specifically ensure
access. Other States use State regulations to guarantee access. The laws and the
regulations have not guaranteed easy access for Ombudsmen. Forty-eight percent of
the States reported incidents where they have had difficulty with gaining access to a
LTC facility. In a few cases, Ombudsmen used their sanction authority which resulted
in fines for the facility. Fines ranged from $500 to $1,000. Following the fine, the
Ombudsman was allowed into the facility. The local law enforcement agency has had
to be brought in to gain access in some States. Ombudsmen have also talked to the
administrator and, after explaining the Ombudsman’s authority, gained access.

Both residents and the staff of LTC facilities need to be protected from retaliation for
reporting a case to an Ombudsman. State laws (’70 percent) and State regulations (18
percent) prohibit retaliation on residents and staff of LTC facilities who report
violations to the Ombudsman. Further, Ombudsmen do not identi~ any complainant
without their permission (and without due cause). State laws (46 percent), State
procedures (26 percent), and State regulations (11 percent) guarantee a complainant’s
confidentiality. There have been instances when complainants have been identified.
Thirty-seven percent of the States report incidents where they have identified
complainants due to abuse, fraud, or court cases.




                                            8
A resident’s and Ombudsman’s files are also confidential information. Fifty-seven

percent of the States protect the confidentiality of files through State law. Other

States use State procedures (22 percent) and State regulations (11 percent).


The OAA requires the State to provide Ombudsmen with sanction authority if any of

these provisions are violated. Eighteen percent of the Ombudsmen report they do not

have State authorized sanction authority. They consider this as a significant problem

and feel they have no muscle backing them Up if necessary. For those who have this

authority, the authority is either legislated (58 percent) or regulated (18 percent).

Thirty percent of Ombudsmen do report using their sanction authority.


LTC VISITATION VARIES SIGNIFICANTLY,                POSSIBLY DUE TO STAFFING

CONCENTRATIONS


Some Ombudsmen do not visit all of their LTC facilities. Only half of the

Ombudsmen report visiting all of their nursing homes annually. Regarding these

States, 38 percent visit at least annually and 53 percent visit at least quarterly. Another

9 percent manage to visit all facilities, but only because all facilities had residents who

issued complaints that the Ombudsmen had to respond to. Among the States which

do not visit all of their nursing homes annually, most (69 percent) visit at least 70

percent of them. The remaining States visit from a quarter to half of their facilities.


Some Ombudsmen say that visitation rates are a function of staffing and that staffing

varies across their State. Accordingly, there are States that do not visit 100 percent of

their nursing homes, but the homes they do visit are visited frequently. One large

State only visits half its nursing homes at least annually, but they visit these half

weekly. Another visits 70 percent of its nursing homes weekly, but does not visit the

remaining 30 percent at all. Ombudsmen report that variation of staff across a State

(i.e., some areas of the State are fully staffed while other parts are partially staffed)

makes it possible for some areas to get weekly visits while other areas are not visited.


While Ombudsmen are not currently required (unless a complaint is brought against a

facility) to visit licensed board and care facilities, many do make such visits. Eighty-

nine percent include licensed board and care facilities in their visitation programs. Of

those who include these facilities in their visits, 29 percent visit all of them and 13

percent visit at least 90 percent. Most of the remaining Ombudsmen visit less than a

third of their board and care facilities.


Some Ombudsman patterns of visitation to licensed board and care facilities mirror

their patterns of visitation to nursing homes. Some visit some of their licensed board

and care facilities frequently, while not visiting others at all. One Ombudsman office

visits 28 percent of these facilities weekly, but does not visit the remaining 72 percent

at all. Another visits 20 percent weekly, while not visiting the other 80 percent. Like

nursing homes, some Ombudsmen attribute this pattern of visitation to the various

staffing levels across a State. Most of a State’s Ombudsman staff may be concentrated



                                             9
around certain key cities, so certain areas of a State have a 100 percent visitation rate
and other areas are not visited at all.




OMBUDSMEN HAVE MANY               METHODS TO INCREASE THEIR VISIBILITY

Many methods are used to make residents and staff of LTC facilities aware of
Ombudsman programs. The most commonly used method is the placement of posters
in facilities (91 percent). Half of the Ombudsmen use the media to make facility staff
and residents aware of their programs. Site visits by Ombudsmen (20 percent) and
hotlines (11 percent), a phone line to a Ombudsman office, are other ways. Other
frequently mentioned methods include pamphlets, Residents’ Bill of Rights, and
attending LTC conferences.

Complaints are most often brought to the attention of the Ombudsman from family
and friends (50 percent) of the residents of LTC facilities and through site visits by a
representative of an Ombudsman (51 percent). Residents also bring forth complaints
(45 percent). Many complaints come over the phone (27 percent), often over hotlines.

Seventy-seven percent of the Ombudsmen prioritized complaints. In these States, all
use “life threatening” as a criterion. Fifteen percent also list “threat of discharge”.

SOME STATES CITE PROBLEMS WITH LEGAL COUNSEL

Thirty percent of the Ombudsman report problems with the availability of legal
counsel. Many of these States mention a lack of funds for an attorney as a major
barrier to legal counsel. The high price for legal services puts a strain on budgets.
Another problem cited is the competition for limited legal staff. For the Ombudsman
programs that use their State attorney general or an attorney in an umbrella agency,
they must often compete with other agencies and concerns. They do not have a
lawyer they can count on. They must follow the schedules or workloads of people
outside of their office. In these instances, the bare minimum of litigation is handled.
Also, attorneys from outside the Ombudsman programs often do not understand the
Ombudsman program and its problems.

Legal counsel for the Ombudsman most often (44 percent) comes from an attorney in
their agency. In some cases the attorney is the Legal Service Developer. Thirty-four
percent use their State Attorney General. Others contract out for legal services or
accept pro bono counsel.




                                            10
o
                           OMBUDSMAN                    COMPLIANCE                       REVIEW

                            Department of Health and Human Services
                                    Administration on Aging



State                                                                          Date

Primary Respondent                                                               Telephone

Review Team Leader                                                                   Telephone


                            ---------   -----------   -------   -------   --------    -------   ----------




1.      Is the Office of the Long-Term Care ombudsman located in the State Agency on Aging?
        (Hereafier the St&e Agency on Aging will be referred to as the State Agency)

                  Yes (IJ Yes, go to question 2)
        B.        No (If 1~0):

                   (1)   Where is it located?




                   (2)   Is there a contract between this agent y and the State Agent y?

                          (a)                  Yes (If Yes, get copy)
                          (b)                  No
                          (c)                  Don’t Know (Check if applicable)

2.      Is the agency that sponsors [houses) the ombudsman responsible for licensing long-term
        care (LTC) facilities or an association affiliated with LTC facilities?

        a.         Yes (If Yes, discuss):




        b.         No

                                                                A-1
3.   Is there a State law governing the Ombudsman Program?

     a.        Yes (If Yes, get copy)
     b.        No
     c.        Don’t Know (Check if applicable)

4.   Does the Office of the Long-Term Care Ombudsman utilize sub-State ombudsmen?

               Yes (If Yes, go to question 5)
     ::        No (If No, go to question 7)

5.   Describe the organizational relationship between the sub-State ombudsmen and the State
     Office of the Ombudsman.




6.   Are there an~ reporting or operations problems with sub-State ombudsman?    (Probe both)




                                                A-2
3.   Is there a State law governing the Ombudsman Program?

               Yes (If Yes, get copy)
     :;         No
     c.        Don’t Know (Check Zyapplicable)

4.   Does the Office of the Long-Term Care Ombudsman utilize             ombudsmen?

     a.         Yes (If Yes, go to question 5)
     b.         No (If No, go to quest-ion 7)

5.   Describe the organizational relationship between the sub-State ombudsmen and the State
     Office of the Ombudsman.




6.   Are there any reporting    operations problems with sub-State ombudsman?    (Probe both)
7.	   How does the State Agency solicit comments and recommendations from area agencies,
      older individuals, and provider agencies regarding the planning and operation of the
      ombudsman program? [Sec. 307(a) (12)(E)]




8.	   Does the State Ombudsman (Do you) work full-time on ombudsman responsibilities as
      outlined in the Older Americans Act? [Sec. 307(a) (12)(A)]

      a.         Yes
      b.         No, Why not?




      c.         Don’t Know (Check if applicable)


9.	   What is the total number of staff in the State office of the Ombudsman, including any sub-
      State program? Include in the total number, clerical and administrative personnel as well as
      full-time, part-time, and volunteer staff.

      a.               (Indicae   total number)
      b.         Don’t Know (Check if applicable)




                                                  A-3

10*   Of that total (number provided in question 9), how many professional and support staff are:
      (Complete     question using a, b, and c)


                                      PROFESS1ONAL                   SUPPORT                DON’TKNOW
                                      (Indicate   Number)         (Indicate Number)       (Check inapplicable)

 a. Full-time employees?
 b. Part-time employees?
 c. Volunteers?


If the respondent     indicties   no volunteers     are used, ask question 11.        Otherwise skip to question
12.

11.   Why aren’t volunteers used to meet the requirements of the Older American’s Act? (Probe
      forjidl  explim~”on.   For example, if the respondent indicates no volunteers are used
       because a state law prohibits use of volunteem, get an explan~”on of th~ sttie lhw.)




12?. What procedures are in place to assure that Ombudsman employees and volunteers, if any,
     are qualified and trained prior to investigating complaints? [See. 307(a)( 12)(K)] (Probe for
      stanhzis      for both employees      and volunteers,       where approptie)




                                                            A-4
13.   Does the Ombudsman program formally certify volunteers?


      a.         Yes (If Yes, go to question 14)

      b.         No (If No, go to question 15)



14.   What are the requirements for certification?





15.   What are the most significant accomplishment(s) of your use of volunteers?





16.   What improvements, if any, are needed in the use of volunteers?

17.   Did staff training, conducted in the last year, include topics such as:


           Yes     No      Don’t Know     (Check applicable   response)

      a.                                  Federal laws, regulations, and policies regarding LTC
                                          facilities, (If No): When was the last time training was
                                          conducted?


      b.                                  State laws, regulations, and policies regarding LTC
                                          facilities, (If No): When was the last time training was
                                          conducted?


      c.                                  Local laws, regulations, and policies regarding LTC
                                          facilities, (If No): When was the last time training was
                                          conducted?


      d.                                  Investigative techniques, (Zf No): When was the last
                                          time training was conducted?



18.   Is there a formal (written) in-service training curriculum for employees?

      a.         Yes (If Yes, get copy)
      b.         No
19.   What are examples of the types of training provided in the last year to: (Complete question
      using a, b, and c)

      a. paid full-time staff?




      b. paid part-time staff?




      c. volunteers?




20.   HOW  do yOU            activities with the protection and advocacy systems for individuals
      with developmental disabilities and mental illness? [Sec. 307(a)( 12)(H)(v)] (Get examples)




                                                  ,




21.   How do you coordinate activities with adult protective services?   (Get examples)




22.   How do you coordinate with the State agency responsible for licensing and ceflifying LTC
      facilities?




23.   How do you coordinate activities with the legal services developer?



                                                           \




24.   How do you encourage the participation by citizen organizations in the Ombudsman
      program? [307(A) (12)(A) (ii)]




                                                A-8
25.   How does the State Agency identify and resolve any potential conflicts of interest affecting
      the Ombudsman, or any employee or representative of the Office of the Ombudsman?
      [Sec. 307(a) (12)(F) (i), (ii), (iii)]




26.   How does the State ensure that no representative of the Office of the Ombudsman will be
      held liable for the performance of official duties? [Sec. 307(a) (12)(I)]




27.   How does the State ensure that willful interference with representatives of the Office of the
      Ombudsman in carrying out their duties shall be considered unlawful?
      [Sec. 307(a) (12)(J)(i)]
28.   What steps has the State undertaken to prohibit retaliation and reprisals by a LTC facility
      on any resident or employee for fding a complaint or for providing information to the Office
      of the Ombudsman? [Sec. 307(a) (12)(J) (ii)]




29.   What State sanction authority is in place regarding interference, retaliation, and reprisals?
      [Sec. 307(a) (12(J) (iii)]




30.   Have any sanctions ever been              to any individual or entity?

      a.         Yes (If Yes):

                  Describe the circumstances, the sanction applied,
                                                            --      and the results of the sanction.

                              CIRCUMSTANCES                      SANCTION             RESULTS OF
                                                                  APPLIED              SANCTION
                    (1)


                    (2)


                    (3)


                    @)


                  (If adiiitional   space is required,     use the back of the previous page)

      b.          No


                                                    A-10
31.   How do you ensure residents of LTC facilities, throughout the State, are made aware of the
      Office of the Ombudsman?




32.   What percent of the nursing homes inthe State are visited annually?

                       (Indic&e percentage)
      ::         Don’t Know (Check if applicable)

33.   How often are nursing homes visited?

      a.         regularly; How many times per year?
      b.         in response to a complaint only
      c.         other (Speci~ and obtain frequency)




34.   What percent of the licensed board and care faciliti~ in the State are visited annually?

      a.   —            (Indictie   percentage)

                  (If more than 5%): How often are licensed board and care facilities visited?

                  (1)           regularly; How man y times per year?
                  (2)           in response to a complaint only
                  (3)           other (Specifi and obtain j7equency)




      b.         Don’t know (Check inapplicable)        -


                                             r’   A-n
                                                             �




                                                   .
35.   Who routinely performs the annual visits to licensed board and care facilities?



36.   List, in order, the most prevalent ways in which complaints are brought
      the Office of the Ombudsman.




37.   Do you prioritize complaints?

      a.         Yes (1! Yes), How are complaints prioritized?    (Probe for process,   definitions
                                used, etc.)




      b.          No


38.   How do you ensure your staffs access to LTC facilities, residents. and residents records?
                                                                                          �




      [Sec. 307(a) (12)(B),QQ]
39.   Have any incidents occurred when the Ombudsman has attempted to gain access to a facility
      or to obtain residents’ records?

      a.         Yes (If Yes), What were the incidents which occumed. and what                       did the
                               Office of the Ombudsman take?


                                                  INCIDENT                             ACTION TAKEN            J




                                (1)



                                (2)



                                (3)

                                                           —
                                      I                                           I                                II
                                (4)




                              (If additional   space is required,            use the back of the previous page)

      b.         No


40.   How do you protect the confidentiality of residents’ records and Ombudsman files?
      [Sec. 307(a) (12)(B),(D)]




                                                  A-13



                                                            .   .4’.!
                                                                        ~-
41.   How do you ensure that the identity of   any   complainant or resident of a facility will not be
      disclosed? [Sec. 307(a) (12)(D)]




42.   Has your Office had to identify the complainant or resident of a facility without
      permission?

      a.         Yes (If Yes), Please discuss the circumstances and under what grounds the
                                OffIce disclosed this information.




      b.         No


43.   HOW is legal counsel made   available to the   Office of the Ombudsman?




                                                 A-14
44.   In the past year, have there been any problems with the availability of legal counsel?

      a.         Yes (If Yes): What were these obstacles, and how were they overcome?




      b.         No

45.   In the past year, what type of issues and cases required legal counsel?




46.   Describe your statewide uniform reporting system.                elements and procedures)




                                                 A-15
47.    What was the date of your last annual report? [Sec. 307(a)(12)(H)]

               /         /

       (?i$e “annual repoti” petiains   to Ombudsman       repoti as per Sec. 307(a) (12MU



48.    Were policy, regulatory, and legislative recommendations made in this report?

       a.          Yes
       b.          No


49.	   Was the annual report submitted to the State agency responsible for licensing or certifying
       LTC facilities?

       a.          Yes
       b.          No


50.    Was it submitted to the State legislature?

       a.          Yes
       b.          No


51.    In general, who else routinely receives the report?




                                                    A-16
52.   What has the State Agency done to ensure that the Ombudsman has the ability to pursue
      administrative, legal, and other remedies on behalf of LTC residents?
      [Sec. 307(a) (12)(G) (ii)]




53.   Are there any Federal requirements causing you operational or financial problems?   (Probe
      both)




/INTERVIEW     COMPLETED]




                                               A-17
 Department of Health and Human Services

ADMIN STRATION ON AG NG

           AND

        OFFICE OF

   INSPECTOR GENERAL





 STATE IMPLEMENTA~ON   OF=
 OMBUDSW     REQUIREMENTS  OF
   THE OLDER AMERICANS ACT




                  APRIL 1993

                              ADMINISTRATION ON AGING

The Administration on Aging (AoA) k the principal Federal agency designed to carry out the
provisions of the O1der Americans Act (OPA). It advises the Secretary of Health and Human
Semites and other Federal agencies on the characteristics, circumstances and needs of older
individuals. Further, it develops policies, plans, and programs designed to promote their
welfare.

AoA administers three grant programs under the Older Americans Act. The largest program -
- Title III of the Act -- consist of formula grants to States to establish State and community-
based programs for older individuals with the purpose of preventing the premature
institutionalization of older individual. The second program -- Title VI -- consists of
discretionary grants with the saxne purpose as Title Iu, but to meet the unique needs of older
Native Americans. The third program -- Title IV -- is also discretionary. Its purpose is to fund
research, demonstration, and training activities to elicit knowledge and techniques to improve
the circumstances of older Americans. (The 1992 Amendments to the OAA created a fourth
program -- Title VII -- which provides funds for State activities to protect the rights of
vulnerable older people. Prior to the 1992 Amendments, Title III of the OAA provided the
funds for these activities.)

                            OFFICE OF INSPECTOR         GENEIWL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, k to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries sexved by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Sewices, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of progrmn and management problems and recommends courses to
correct them.

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Departrncnt,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

                                        THIS REPORT

This report is the result of a joint effort between AoA and OIG/OEI to assess the
implementation of Title III of the O1der Americans Act. OIG staff in the New York and
Dallas regional offices provided technical support to the joint project. AoA staff in New York
and Dallas directed the project with ail regional offices participating in the development of
instruments and data collection.

For additional information, please contact:

AoA            John Dia~ Regional Program Director-Dallas                   214-767-2971
OIG            Jack Molnar, Project Leader-New York                         212-264-1998
